<html>
<title> - RETROSPECTIVE REVIEW: HAVE EXISTING REGULATORY BURDENS ON SMALL BUSINESSES BEEN REDUCED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






    RETROSPECTIVE REVIEW: HAVE EXISTING REGULATORY BURDENS ON SMALL 
                               BUSINESSES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 8, 2013

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Small Business Committee Document Number 113-015
              Available via the GPO Website: www.fdsys.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-824                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                       BLAINE LUETKEMER, Missour
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director














                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

The Honorable Polly Torttenberg, Under Secretary of 
  Transportation for Policy, United States Department of 
  Transportation, Washington, DC.................................     3
Jeanne Hulit, Associate Administrator, Office of Capital Access, 
  United States Small Business Administration, Washington, DC....     5
Cheryl Cook, Chief Information Officer, United States Department 
  of Agriculture, Washington, DC.................................     7

                                APPENDIX

Prepared Statements:
    The Honorable Polly Trottenberg, Under Secretary of 
      Transportation for Policy, United States Department of 
      Transportation, Washington, DC.............................    30
    Jeanne Hulit, Associate Administrator, Office of Capital 
      Access, United States Small Business Administration, 
      Washington, DC.............................................    36
    Cheryl Cook, Chief Information Officer, United States 
      Department of Agriculture, Washington, DC..................    38
Questions for the Record:
    None.
Answers for the Record:
    None.

 
    RETROSPECTIVE REVIEW: HAVE EXISTING REGULATORY BURDENS ON SMALL 
                        BUSINESSES BEEN REDUCED?

                              ----------                              


                         WEDNESDAY, MAY 8, 2013

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in Room 
2360, Rayburn House Office Building, Hon. Sam Graves [Chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Luetkemeyer, 
Mulvaney, Tipton, Huelskamp, Schweikert, Collins, Rice, 
Velazquez, Schrader, Clarke, and Chu.
    Chairman Graves. Good afternoon, everyone. I will call this 
hearing to order. And I want to thank our witnesses for being 
here today and taking time out of your very busy schedules, and 
I look forward to your testimony.
    We are here today to examine the results of a government-
wide initiative to review existing red tape. Like an overgrown 
forest that needs to be thinned periodically, the regulatory 
system requires some regular pruning.
    All Presidents since President Carter have directed Federal 
agencies to review regulations, and Congress has ordered 
agencies to periodically review regulations that have a 
significant impact on a substantial number of small businesses. 
However, agencies' past efforts to comply with these mandates 
have generally been inconsistent and quite ineffective.
    In 2011, President Obama issued Executive Order 13,563 
directing Federal agencies to create plans for reviewing their 
existing significant regulations. And in 2012 the President 
issued Order 13,610, which requires agencies to regularly 
report on the results of the retrospective review efforts. The 
President also instructed agencies to give special 
consideration to initiatives that would reduce regulatory 
burdens on small businesses. And with the government-wide 
regulatory review initiative well into its second year, this is 
an ideal time to examine the results that we have so far.
    Only a limited number of actions have been finalized that 
provide quantified reductions in costs or paperwork burdens. 
Some actions will provide meaningful burden reductions for 
small businesses, but other actions are less significant or 
make questionable burden reduction estimates. However, the 
small number of burden-reducing actions pale in comparison to 
the fast growing thicket of red tape, and a few recently 
released reports shine some new light on the regulatory burden.
    According to the Office of Management and Budget, or OMB, 
in fiscal year 2012 there were 14 major rules alone that 
imposed an additional $14.8 to $19.5 billion in annual costs, 
which was the costliest year on record for federal regulation. 
As a point of comparison, there were six major rules in fiscal 
year 2003 that imposed only $1.9 to $2 billion in annual costs. 
A more comprehensive tally of 2012 agency regulatory cost 
estimates found that 539 final rules added about $215 billion 
in new burdens.
    Agencies have to do a better job to reduce overly 
burdensome and unnecessary red tape and paperwork to ensure 
that small businesses are able to survive and grow in a 
competitively global economy. And I look forward to hearing 
from all of our agencies today and our witnesses on what 
burdens they have seen or worked to reduce on small businesses 
as a result of their recent retrospective review efforts.
    And with that, I turn to Ranking Member Velazquez for her 
opening statement.
    Ms. Velazquez. Thank you, Mr. Chairman. I want to take this 
opportunity to thank all the witnesses for being here today and 
the chairman for holding this important hearing.
    Our government's regulatory structure profoundly influences 
the American economy. Certainly without many regulations, the 
public interest would be harmed. These rules make our water 
safe to drink, ensure our air is safe to breathe, protect 
workers from unnecessary risks, and protect consumers from 
unsafe products. Regulations also help our markets operate 
fairly. Without them, small businesses and entrepreneurs will 
often find their efforts to introduce new products and services 
stymied by large, entrenched companies who fear competition and 
seek to game the system.
    While regulation has a role to play, the challenge is 
ensuring these rules remain relevant and are carefully targeted 
to avoid unintended consequences. In that regard, retrospective 
reviews are critically important in achieving that careful 
balance. This process helps those of us in Congress as well as 
the agencies develop smarter, more effective regulations and to 
modify or eliminate rules whose purposes have been outlived.
    A number of mechanisms exist for evaluating these 
regulations. The Regulatory Flexibility Act requires an 
examination of all regulations that have a significant economic 
impact on small entities. Other agencies, like EPA, are 
required under the Clean Air and Water Acts to periodically 
review their own regulations. President Obama has reaffirmed 
these principles by issuing Executive Order 13563, which calls 
for a government-wide review of regulations. This undertaking 
has already yielded a number of new ideas, some of which I 
expect we will hear about today.
    I know the Department of Agriculture is reducing 
information collection burdens on industry while also updating 
its lending processes. The Small Business Administration is 
also working to streamline its capital access application 
procedures. If done correctly, simplifying these rules will get 
more capital flowing to small firms at a time when our economy 
could use this boost. The Department of Transportation is 
working on 83 initiatives that will save the department effort, 
taxpayers money and reduce inefficiencies for industry. I am 
pleased to see these agencies are taking the president's 
executive order seriously.
    Part of this hearing's purpose will be to get a better 
grasp on how small firms might be affected by some of these 
challenges and what more can be done to further alleviate 
regulatory burden. Balancing regulatory costs against benefits 
is always a difficult challenge, but I am encouraged by 
initiatives we have seen thus far. These steps are a genuine 
effort to get it right, and I look forward to discussing what 
more can be done in that regard.
    With that, I yield back, Mr. Chairman.
    Chairman Graves. Thank you very much.
    And our first witness is going to be Polly Trottenberg, who 
is the Under Secretary of Transportation for Policy at the 
Department of Transportation. Ms. Trottenberg was previously 
the Executive Director of Building America's Future, which is a 
non-profit organization that focuses on infrastructure 
investment. She also served in the United States Senate for 12 
years, and most recently was Deputy Chief of Staff and 
Legislative Director for Senator Barbara Boxer.
    Welcome. Thank you for coming in. I appreciate you taking 
the time.

 STATEMENTS OF THE HON. POLLY TROTTENBERG, UNDER SECRETARY OF 
    TRANSPORTATION FOR POLICY, UNITED STATES DEPARTMENT OF 
   TRANSPORTATION; JEANNE A. HULIT, ASSOCIATE ADMINISTRATOR, 
    OFFICE OF CAPITAL ACCESS, UNITED STATES SMALL BUSINESS 
  ADMINISTRATION; AND CHERYL COOK, CHIEF INFORMATION OFFICER, 
            UNITED STATES DEPARTMENT OF AGRICULTURE

            STATEMENT OF THE HON. POLLY TROTTENBERG

    Ms. Trottenberg. Thank you. Thank you, Chairman Graves and 
Ranking Member Velazquez and members of the Committee. I am 
pleased to be here today to testify on the Department of 
Transportation's implementation of President Obama's Executive 
orders which seek to reduce regulatory burdens.
    Through our ongoing review and revision of DOT's rules and 
regulations under these two Executive orders, we have already 
saved U.S. businesses significant time and money over the last 
couple of years, and we hope to save them even more in the 
coming years. And we will do so while we continue our 
fundamental mission, saving lives and improving safety 
throughout our Nation's transportation system, reducing the 
environmental impacts of transportation, and providing strong 
consumer protections for the traveling public.
    We know this Committee has a special charge to evaluate how 
our rules and regulations affect America's small businesses. At 
DOT, we too are continuously mindful of the regulatory burdens 
small businesses face, and we try our best to balance them with 
the very significant legal and statutory requirements.
    DOT has one of the largest rulemaking responsibilities in 
the Federal Government. We are proud of our recent regulatory 
requirements, including CAFE standards, overhauling pilot rest 
requirements, improving pipeline, auto, bus and truck safety 
enforcement, and strengthening aviation consumer protections. 
And we have done so with very robust public and private sector 
participation, the best science and economic modeling 
available, a commitment to trying to use plain, understandable 
English in our rulemaking, and seeking pragmatic, nonregulatory 
solutions where we can that will minimize burdens and costs for 
U.S. businesses.
    But we know we can do better in the regulatory arena, and I 
am grateful that the Committee is showing interest. We do look 
forward to working with you more on this issue. And I also want 
to thank the Committee for noting in today's hearing memo that 
USDOT's January 2013 retrospective regulatory review report 
does detail a wide variety of actions we have taken over the 
last few years on 89 rulemakings across all parts of the 
Department. These actions are designed to update, streamline, 
clarify or remove obsolete regulations, consolidate duplicative 
requirements, and reduce the number of entities subject to our 
regulations.
    The 64-page report details the extensive work that 
department experts have done, with the input of hundreds of 
stakeholders and members of the public, to improve the 
regulatory process and reduce red tape wherever we can. We are 
proud of the work contained in the report and I invite the 
Committee to review it on our website. The document is somewhat 
lengthy, because we are reporting on all the recommendations we 
have received from the public that we are addressing, and we 
welcome your input on how we might improve the format of the 
report.
    And within the report, at least 20 of the rulemaking 
actions listed will have a particular benefit for small 
businesses. The most dramatic of these actions is a proposal 
that the Federal Motor Carriers Safety Administration, FMCSA, 
is currently developing with its stakeholders to rescind an 
outdated 1978 requirement that truck drivers submit and 
trucking companies retain very burdensome paper driver vehicle 
inspection reports even when there are no defects found in the 
vehicle. FMCSA estimates that rescinding this 35-year-old 
requirement would save the trucking industry $1.5 billion a 
year without adversely affecting safety. We know that FMCSA's 
regulations can have a large impact on the trucking industry, 
particularly small and independent carriers, and this proposal 
could make a real dramatic difference for those small carriers.
    Other proposals within our report call for moving to 
electronic filing signatures and recordkeeping in a number of 
our industries, and simplifying our certification and complaint 
procedures, which are often complex, duplicative and time-
consuming. And those items may not sound that flashy, but in 
addition to FMCSA's $1.5 billion proposal, these other proposed 
actions cumulatively could save small businesses, which include 
motor carriers, railroads, general aviation operators, 
additional tens of millions of dollars and countless hours of 
time and aggravation. They are really the quintessential 
definition of cutting red tape.
    And we will continue our efforts to uncover and implement 
more such actions. In fact, the President's two recent 
Executive orders institutionalize many of the practices that 
the Department has long embraced under administrations from 
both parties, as the chairman mentioned. DOT has been regularly 
reviewing and revising its existing regulations for almost 35 
years. And that said, we know we still have a lot more work to 
do. And that work also requires close collaboration with the 
NTSB, the GAO, our Inspector General and, of course, Congress, 
all of which play a very significant role in setting DOT's 
regulatory agenda.
    In conclusion, let me once again thank the Committee for 
its interest in DOT's work. We share your desire to 
continuously improve the safety, environmental quality and 
consumer protection of our transportation system in a sensible, 
scientific and cost beneficial way, while ensuring that 
American businesses, large and small, are treated fairly so 
that they can grow and thrive.
    Thank you, and I will be happy to take any questions.
    Chairman Graves. Thank you very much.
    Our next witness is Jeanne Hulit. Ms. Hulit is the 
Associate Administrator for the Office of Capital Access at the 
Small Business Administration. Prior to her federal government 
service, Ms. Hulit was the Senior Vice President for Commercial 
Lending at Citizens Bank and she also worked for Key Bank as a 
middle market lender.
    Thank you very much, and I appreciate you being here.

                  STATEMENT OF JEANNE A. HULIT

    Ms. Hulit. Thank you, Chairman Graves, Ranking Member 
Velazquez and members of the Committee. I am pleased to be 
testifying before you on the Small Business Administration's 
efforts to streamline its regulations.
    In the Office of Capital Access, we have taken several 
steps to ease the regulatory burden on small business. We have 
a proposed rule to streamline both our 7(a) and 504 loan 
programs, which just closed for public comment. SBA's proposed 
rule will enable the 504 and 7(a) loan programs to better serve 
small businesses. In addition to reducing paperwork 
requirements and cost, the new rules will ease some barriers to 
program participation while reducing risks to the SBA and our 
CDC partners.
    The two most significant changes are to the personal 
resources test and the affiliation requirement for both 
programs. Both of these proposed changes will increase 
eligibility for 7(a) and 504 loans, allowing more small 
businesses to access these critical financing tools.
    By streamlining the documentation requirements for 
affiliated businesses, SBA will help applicants avoid 
submitting multiple and often duplicative tax returns and 
financial statements and significantly reduce paperwork 
requirements. Similarly, elimination of personal resources 
tests will streamline the application process, increase 
investment options for small business owners, and remove 
restrictions that could prevent the agency from approving 
projects with significant community benefit.
    These changes are estimated to reduce 93,800 hours of 
process burden for participants in the 504 and 7(a) loan 
programs, which is a 10 percent reduction for borrowers and 
lenders and a 5 percent reduction for the agency.
    In addition to regulatory reductions, the Office of Capital 
Access has implemented process improvements that have reduced 
the paperwork burden to key 7(a) programs, resulting in 
significantly increased participation.
    Changes in our Cap line program, providing revolving lines 
of credit, resulted in a 393 percent increase in loan volume in 
that program between 2011 and 2012. And year to date, the 
volume continues to double.
    Our Small Loan Advantage product was streamlined this past 
June, which has resulted in a monthly volume of $55 million 
versus $5 million before the program changes, a tenfold 
increase.
    Additionally, in August of 2012, the Office of Capital 
Access reduced the paperwork requirements for many participants 
in our surety bond program. The Quick Bond Guarantee 
Application, or Quick App, combines the contractor application 
and SBA surety agreement to one easy to use form. This reform 
significantly reduces paperwork and processing time for SBA-
backed surety bonds on construction contracts of $250,000 or 
less. As a result, year to date we have seen an increase of 49 
percent in the number of bonds guarantied over last year.
    In addition to these capital access improvements, there 
have also been significant regulatory and paperwork reforms in 
other SBA programs. For example, our Office of Investment has 
streamlined the application process for SBIC licenses. Harry 
Haskins, our Deputy Associate Administrator for Investment, was 
announced yesterday as a finalist for the Samuel J. Heyman 
Service to America medal, a prestigious award dedicated to 
honoring America's civil servants. Harry and his team were 
recognized for the work they have done to streamline and turn 
around our SBIC program, which has had three consecutive record 
breaking years. Our SBIC team helped reduce the processing time 
for new SBIC funds to just 5.4 months, down from almost 15 
months in 2009.
    And for the thousands of small firms that do business with 
the Federal Government, we have helped reduce the time it takes 
to get paid. The President's Quick Pay Initiative cut in half, 
from 30 days to 15 days, the amount of time it takes for the 
Federal Government to pay small businesses. Getting paid sooner 
means that small businesses can get funds more quickly to 
reinvest in additional working capital, marketing their 
products and hiring new workers.
    In addition to reviewing and revising its own regulations, 
the SBA has also engaged the small business community to find 
out how other Federal rules and regulations can be adapted to 
fit the changing needs of emerging entrepreneurs. In 2011, 
senior administration officials visited eight cities as part of 
the Startup America Initiative. At these roundtables, the SBA 
listened to small business owners, entrepreneurs and investors 
as they described improvements to processes and regulations 
that can help build a more supportive environment for 
entrepreneurship and innovation.
    Those ideas were described in a report encompassing a broad 
array of policy ideas from student loans to intellectual 
property, and we have shared it with our Federal partners and 
the general public.
    Finally, as a former regional administrator in New England, 
I can attest to the agency's efforts to coordinate with the 
Office of Advocacy to ensure that new regulations do not overly 
burden small businesses. Our regional administrators conduct 
outreach efforts with regional advocates to respond to concerns 
voiced across the country.
    I believe that the SBA has made significant progress in 
reducing the regulatory paperwork burdens on America's small 
business; however, work still remains, and we are committed to 
continuing these streamlining efforts.
    I wish to thank you for inviting me to testify on this 
important topic today. I look forward to answering your 
questions.
    Chairman Graves. Thank you very much.
    Our final witness is Cheryl Cook, who is the Chief 
Information Officer for the Department of Agriculture. Prior to 
being named as the Chief Information Officer, Ms. Cook has 
served in a number of positions at the USDA. She also served as 
the Deputy Secretary for Marketing and Economic Development at 
the Pennsylvania Department of Agriculture and the Executive 
Director of Keystone Development Center, which was a nonprofit 
that helps new and emerging cooperatives.
    So thank you very much for being here. I appreciate it.

                    STATEMENT OF CHERYL COOK

    Ms. Cook. Thank you, Mr. Chairman, Ranking Member 
Velazquez, members the Committee.
    In the interests of getting right to the discussion, I 
would like to submit my full statement for the record and just 
summarize remarks about USDA's efforts to reduce regulatory 
burden on small businesses and facilitate new business 
development through an array of research, financial and 
technical assistance programs.
    I have had the privilege of being the CIO for just over a 
year now. I was still in USDA Rural Development as Deputy Under 
Secretary when the Executive orders were issued, so I kind of 
bridge, you know, both of those roles, so I was pleased to have 
the opportunity to be the witness for USDA today, even though I 
am not necessarily an expert in some of things that your 
constituents might be raising with you.
    Small businesses, including farms and ranches, create a 
foundation for prosperity across rural America, providing an 
abundant and affordable food supply, fiber supply, and 
increasingly our renewable energy supplies.
    Under President Obama and Secretary Vilsack's leadership, 
small businesses have been a critical element of our strategy 
to improve economic opportunity for those living in rural 
communities. We recognize that farmers, ranchers and rural 
business owners devote long hours and hard work to their trade 
and acknowledge our responsibility to ensure that their efforts 
are not weighed down by unnecessary and burdensome paperwork.
    Revising or repealing unnecessary, duplicative or overly 
burdensome regulations already was underway in USDA's internal 
processes when the Executive orders were issued. Deputy 
Secretary Merrigan responded to the new orders by providing a 
more formal framework comprised of teams from around mission 
areas and agency levels to more formally review our 
regulations.
    We looked at several factors, most of them found in the 
Regulatory Flexibility Act, such as the continued need for the 
regulation, the nature of comments we have been receiving from 
the public, the complexity of the regulation, the length of 
time since the regulation had been evaluated, and the degree to 
which technology, economic conditions or other factors might 
have changed in the areas affected by the regulation. USDA also 
considered comments from stakeholders, internal resource 
capacity, and the potential need for statutory change to enable 
regulatory change.
    USDA invited the public to participate in this review 
through the publication of a request for information in April 
of 2011, along with an invitation to visit our open government 
website and provide comments directly there, an opportunity 
that still exists today.
    In addition, the Department's largest regulatory and 
service delivery component agencies conducted independent 
public outreach activities, employing a variety of mechanisms, 
from social media to more traditional requests for information 
and customer focus groups.
    Through this effort over 2,100 public comments were 
received from a broad range of stakeholders, including 
individuals, regulated entities, trade groups, other 
governmental entities, including tribal governments, and USDA 
employees.
    USDA released its final plan for retrospective analysis in 
August 2011, and in the subsequent months targeted eight areas 
for significant reduction on small business burden.
    Since then, we have made progress in many of those areas. 
For example, in January of 2012, the Food Safety Inspection 
Service published a proposed rule for electronic export 
application and certification fees to make the export component 
of the agency's public health information system available as a 
much simpler and cheaper electronic alternative to the paper-
based application and certification process that had existed 
before. Last November, a similar rule from FSIS for electronic 
imports inspection and certification was issued, and will save 
thousands of hours in finding and completing the necessary 
paper forms.
    Last month Rural Development's Rural Business Cooperative 
Service published a proposed rule to streamline grant 
applications and reporting requirements. Personally I found 
this one very satisfying. We are finally moving past the 
accusation that you had to either be a professional grant 
writer or have enough money in your pocket already to hire a 
professional grant writer in order to access these assistance 
programs. We are now streamlining that process.
    USDA also has made significant investments in information 
technology to reduce red tape and make it easier to access our 
financial and technical assistance programs. While many of 
USDA's 19 agencies have IT modernization efforts underway to 
push their programs to the Web, most notable is the Farm 
Service Agency's MIDAS Initiative, which finally rolled out 
nationwide earlier this month. Through MIDAS, FSA employees 
finally have modern tools to provide better service to farmers 
and ranchers, logging into a single system rather than having 
to toggle back and forth among several systems, being able to 
incorporate GIS technology into their work finally 
electronically for the first time instead of having to print a 
paper map and then draw on it with a pen to outline which 
fields are going to be planted to what crops this year.
    USDA continues to accept comments from the public on any of 
its regulations and continues to look for ways to advance the 
mission of our Department consistent with the Executive orders. 
Agencies continue to engage with stakeholders and provide ever 
more information online in formats that make doing business 
with USDA easier no matter what kind of device you might be 
using.
    USDA's open government website still gives the public a 
format to provide input, and we welcome any suggestions on our 
services from the people who use them.
    Mr. Chairman, thank you again for the opportunity to appear 
today. I would be happy to address any questions you have at 
this point.
    Chairman Graves. Thank you all very much. Again, I know you 
are all busy, and I appreciate you coming in.
    I have two questions actually for Ms. Trottenberg, and they 
are specific to aviation, but my first question is about there 
is a program out there called the Living History Flight 
Experience Program, and what that did was allow owners and 
operators of very historically significant aircraft, which can 
be very expensive to maintain and run--they used to be able to 
apply for an exemption to have some limited passenger carrying 
capability to be able to, you know, again, help pay for those 
aircraft. Two years ago the FAA eliminated that exemption and 
said they would come out with a rule in October of 2012, which 
was last October, and they have still yet to provide a rule. 
And I know a lot of these folks are just hanging out there 
waiting for an opportunity.
    But my first question is, why is it that you all closed the 
rule, or the exemption at least on that when--you know, just to 
be able to get the experience, I guess, of flying in one of 
these historic aircraft, but yet right now you can buy a ride 
on Spaceship 2 to experience space, as a commercial effort. It 
is okay to go into space and take a ride there, but it is not 
okay to take a ride on one of these airplanes, or at least 
allow these 501(c)(3)s to apply for an exemption to be able to 
give that.
    Ms. Trottenberg. Yeah. And I apologize, Mr. Chairman. I 
actually am not familiar with the Living History rule, so I 
don't know what FAA's reasoning was. I hear your concern, 
though, that it has taken a long time, and I certainly would 
like to get back to your staff on sort of what the status of it 
is.
    You know, in general, I know from the FAA's point of view, 
you know, they do sort of a constant upgrade on their rules and 
regulations looking at safety issues, and, you know, I am not 
sure here. I would presume that might have been the reasoning 
behind it, but again, I would like to check and get back to on 
that.
    Chairman Graves. Well, then have your staff or yourself 
write down. There is three things that I want to know. You 
know, one, I want to know what the, you know, purpose behind 
this was, which is a very general question. The second thing is 
I want to know when the rule, the new rule is going to come 
out, because you missed the deadline by a long ways, as matter 
of fact, and you have got a lot of people out there depending, 
so I want to know when. And I also want to know how much you 
are involving the industry out there to help write the new 
rules, to make sure that these opportunities are safe and that 
they can continue to offer--or be able to apply for this 
exemption and offer these rides, you know, obviously with a 
waiver.
    The next thing is, is when it comes to the FCC, I mean the 
Federal Communications Commission, which recently issued a rule 
on ELTs, those are emergency locator transmitters. They are in 
every single aircraft that is out there. They are required to 
be in every single aircraft that is out there. They right now 
operate on 121.5 megahertz. And basically you have airplanes 
and airlines that monitor that frequency all the time in case 
something goes down and so they can find that aircraft.
    Well, the FCC came out with a rule that said that they can 
no longer be manufactured, they cannot be imported, they cannot 
be certified, they cannot be used and they cannot be sold, 
which means you have hundreds of thousands of aircraft out 
there with this equipment in there and now being required to 
buy new equipment, which is going to cost, you know, millions 
and millions of dollars to the industry and to a lot of small 
businesses out there.
    And my question is, and you may not be able to answer this 
either, but I do want an answer from you, I want to know if the 
FAA, Department of Transportation is going to oppose that FCC's 
rule, because it is going to be extraordinarily burdensome. And 
these are small businesses and this equipment is very 
expensive. These are small businesses that are trying to 
operate. And, again, it comes right underneath what we are 
talking about and some of the things that are coming out, 
involving the industry out there, which it is not being 
involved, it is not being asked to take part in this process. 
And you probably aren't familiar with that rule either. I will 
let you go ahead and comment.
    Ms. Trottenberg. Well, I know, Mr. Chairman, we have 
obviously a new chairman coming into the FCC, and actually the 
DOT. We have a lot of issues that we are setting up an agenda 
to speak to them about, so let me make sure this is on the list 
and get with FAA and get back to you with some answers on it.
    You know, there is a whole range in the transportation 
field, as you know, of spectrum and communication issues that, 
you know, involve our two agencies.
    Chairman Graves. Well, how soon can I expect an answer? Can 
I expect it in 2 weeks?
    Ms. Trottenberg. Let us try and get you something by the 
end of this week. How about that?
    Chairman Graves. Okay. By the end of this week. That is 
perfect.
    Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Every time we do hearings in this committee as well as 
other committees, but particularly this one, time and time 
again we hear stories on regulations from small businesses, the 
burden of those regulations, they don't have the amount of 
money that would allow for them to hire the lawyers and 
accountants and so on.
    So the president offered a great opportunity for the 
federal agencies to review existing regulations based on his 
Executive Order 13563, and that executive order provides 
specific instructions to the federal agencies as far as 
reviewing existing significant regulations. So I take issue 
with agencies that go beyond the scope of the executive order 
and review rules that are proposed rules, not focusing on the 
existing regulations.
    So my question is, why are agencies doing that? For 
example, Ms. Hulit, I would like to hear what the rationale is 
for SBA to include so many rulemakings in its report and not 
many existing regulations other than size standards, which we 
know SBA is already statutorily required to update?
    Ms. Hulit. Thank you, Congressman Velazquez. The agency is 
in a constant dialogue with our lending community and our small 
business borrowers on how our programs are affecting them, 
whether they are useful, whether there are barriers to 
accessing the program. So in addition to the size standard 
issue that is required under the Executive order and reviewing 
our existing regulations, we have gone through a comprehensive 
process with our borrowers and with our lenders to get feedback 
on our loan programs. Some of that feedback has been existing 
regulatory issues that are problematic that they would like to 
see us change. And so we have to work comprehensively just not 
only on the Executive order, but on other issues that we hear 
from our client base, the borrowers and the lenders, on what 
we----
    Ms. Velazquez. Of all the completed actions that you have 
taken, can you name at least three regulations, that are 
existing regulations, that have been included in the report?
    Ms. Hulit. I know that there are several size standards 
that have been submitted to OMB.
    Ms. Velazquez. Size standards, statutorily SBA has to 
update----
    Ms. Hulit. Right. I understand that. And we----
    Ms. Velazquez. So that is beyond the scope of the executive 
order by the president, which specifically asks to review 
existing regulations. Look, you have in your books regulations 
that are dated 10, 15 years that do not make sense in today's 
economic reality. If we are seriously committed to take this 
opportunity to review those existing regulations and decide 
through economic impact analysis and everything that you have 
to do whether they make sense or not, then that is what the 
president wants and that is what we expect.
    I would like to ask Transportation, each of the agencies 
here today have been reporting for over a year now on 
retrospective reviews, and so I just would like to ask you, 
will the sequester hurt DOT's ability to carry out those 
initiatives?
    Ms. Trottenberg. Yes. Thanks for the question. And I think 
you have heard our Secretary, Ray LaHood, and a number of our 
modal administrators, including FAA Administrator Michael 
Huerta, have pretty much talked at great length about a lot of 
the impacts of sequester. Now, obviously we are grateful that 
Congress recently passed legislation that will enable us to 
mitigate some of the effects within the FAA, but clearly we 
have at DOT been planning for the sequester essentially for a 
year, and a lot of parts of the Department, we have engaged in 
a hiring freeze, and now luckily furloughs will be minimized, 
but the agency has had to cut expenses in a lot of ways. 
Clearly it has an effect on our operations.
    Ms. Velazquez. And SBA and then USDA, the same question on 
the sequester.
    Ms. Hulit. Under the sequester, we have six accounts that 
had to be reduced under the sequester, and we have been 
executing those cuts accordingly. Fortunately at this point we 
don't have to have furloughs, but we have had to reduce our 
program authority as well as some of our grant support.
    Ms. Velazquez. Ms. Cook.
    Ms. Cook. Largely the same answer. Our Food Safety 
Inspection Service was facing fairly significant furloughs that 
would have had an immediate impact on----
    Ms. Velazquez. But----
    Ms. Cook.--meat packers, but we have managed to avoid that.
    Ms. Velazquez. My question is will the sequester impact the 
review of existing regulations?
    Ms. Cook. It doesn't impact the review. To the extent that 
the review concluded that we might need a new IT system, for 
example, our ability to contract out is diminished by the 
resources that have been sequestered, of course, but it doesn't 
stop us from moving forward with the review.
    Ms. Velazquez. One area where the success of this executive 
order will be defined is whether or not there is coordination 
among agencies. And I know that historically this has been a 
problem and very difficult to accomplish. Such interagency 
consultation is absolutely critical to reduce regulatory 
burden. For instance, the EPA and DOT were able to do so 
regarding fuel economy standards. Has the USDA taken similar 
steps where appropriate to coordinate with other agencies?
    Ms. Cook. USDA has coordinated with other agencies. For 
example, last year we put out a joint notice of funds 
availability with the Economic Development Administration, 
leveraging our resources with theirs so that, again, people who 
might not be a professional grant writer can get to one system 
and reach both agencies' financial assistance programs.
    Within USDA coordination can be a challenge. As you know, 
we are a department of 19 different agencies and 10 staff 
offices, and sometimes just keeping our own cats herded can be 
a challenge. Where this came up for us in last year's review 
process really was in the area of tribal consultation. We are 
absolutely committed at USDA to consulting with tribal 
partners, but we were killing them, frankly, with the number of 
consultation opportunities we are offering across 19 agencies, 
and so our Secretary's Office of Tribal Relations stepped in to 
help us better coordinate that consultation activity and give 
them, I think, a more manageable bite at our regulatory agenda.
    Ms. Velazquez. Ms. Trottenberg, do you have any example 
where you have been coordinating with other agencies?
    Ms. Trottenberg. Yeah. I mean, again, particularly speaking 
about aviation, one of the new provisions FAA will be 
implementing is creating an unmanned aerial craft program, a 
pilot program, and that is a program that clearly requires 
coordination across the Federal Government, with DOD and NASA 
and the FCC. And so, yes, we are going to make sure we talk to 
all the affected agencies and jurisdictions so that we don't 
later run into complexities and problems that would slow the 
program down.
    Ms. Velazquez. And Ms. Cook and Ms. Hulit, have you worked 
together in terms of the assisted loan programs?
    Ms. Cook. Sure. USDA and the Small Business Administration 
actually has a memorandum of understanding committing ourselves 
to working together on our programs. In many cases one picks up 
where the other leaves off.
    Chairman Graves. Quick follow up. When you mentioned 
working with agencies across the federal government, which is 
great, what about involving those businesses or those 
associations that are going to be affected by some of these 
rules? UAVs a perfect example.
    Ms. Trottenberg. Yeah. I mean, there we are doing a lot of 
outreach with businesses and local communities. And I would say 
all of us that travel around the country, we are regularly 
meeting with communities that are interested in their business 
communities that want to put in applications and participate in 
the program. So we are getting a lot of terrific input. And, 
you know, there are a lot of challenging issues there, 
particularly privacy issues. As you know, now a lot of local 
communities are starting to pass ordinances saying they don't 
want to have those types of aircraft in their communities. So 
there are a lot of legal, privacy, technical and business 
issues to work through, but I think we are going to get a lot 
of great input and it is going to be a really terrific program.
    Chairman Graves. Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman. And thank all the 
witnesses today for their agencies' efforts to try and 
streamline things and take the burden of regulation off our 
small businesses. They are our job creators, and when you 
hamper them, you hamper the ability of them to produce the jobs 
that are going to get us out of this mess.
    Today I want to talk to Ms. Trottenberg. I have got a 
couple questions for you. And first I want to thank your agency 
for the help. I know Congressman Graves and I worked on the 
hours of service issue and, you know, we had a little problem 
with it and you were willing to sit down and your agency was 
willing to sit down and review the issue and review our 
concerns about it, and then we were able to get something done 
in a timely fashion. I hope that you would be willing to work 
on that issue with another issue I am not going to bring up 
here.
    My staff should have briefed you or your staff with regards 
to my issue I am going to bring up today, which is the 
reinterpretation by your agency with regards to the FMCSA 
interpretation of the exemption of the rule of farmers 
transporting hazardous materials by requiring them to have a 
CDL along with alcohol and drug testing within a 150-mile 
radius. Originally the rule was 150 miles within the State, and 
the new language, according to the new statute, is 150 air 
miles regardless of boundary, whether it is a road, whether it 
is a political subdivision line, State line or it is a river, 
whatever, 150 air miles, and yet your agency made the statement 
that FMCSA treats as equivalent to the farm vehicle drivers, 
which is the previous definition, of operators of a farm 
vehicle.
    So as a result, we have gone back to the old definition and 
sort of muddied the waters, and now we have farmers who are 
getting ready to go in the field that are unable to transport 
their things without having to go through the process of 
getting a CDL license. And so I guess my comment to you is can 
we expect some help?
    Ms. Trottenberg. Absolutely. I think--and I am looking over 
here at the staff. I think the good news is we have been 
talking to your staff and the Farm Bureau, and I think we are 
going to have a good solution very shortly, and we can brief 
your staff on the details.
    Mr. Luetkemeyer. Okay. When is that ``shortly''?
    Ms. Trottenberg. I think the ``shortly'' is end of May, 
early June, so within the next few weeks.
    Mr. Luetkemeyer. Okay. Ms. Cook, how important is this to 
get this done real quickly? You represent all the farmers.
    Ms. Cook. Farming is a seasonal activity, to be sure.
    Mr. Luetkemeyer. And so what is happening right now?
    Ms. Cook. Well, it depends on where you are in the country 
what is happening right now.
    Mr. Luetkemeyer. Well, I am in the Midwest. Most of this is 
going on in Missouri, where I am from. What is happening?
    Ms. Cook. What is happening right now is the farmers are 
beginning to do their planting.
    Mr. Luetkemeyer. So how important is it to get this done 
ASAP?
    Ms. Cook. It is important.
    Mr. Luetkemeyer. Would you make that into a request of Ms. 
Trottenberg to get that done?
    Ms. Cook. I would be happy to work with Ms. Trottenberg and 
the DOT.
    Mr. Luetkemeyer. Okay.
    Ms. Trottenberg. Let us see what we can do to hurry it 
along. I take your point about the timing issues on----
    Mr. Luetkemeyer. It is very important. I know this is a 
problem we had with the hours of service issue. And, again, it 
was a situation where the farmers were in the fields right now. 
This has to be done immediately, otherwise you are going to 
lose a whole planting season and these folks are going to be in 
a situation that is going to be cross-wise with what they want 
to try and do here.
    And remember, farming is a small business. These folks are 
business people who are trying to make a living and do the 
right thing as well.
    And I am curious, whenever the rule was proposed, did you 
go back to the congressional statements that were made during 
the debate on this bill and use that as a guideline for the 
intent of what this rule was supposed to--whenever this was put 
into law? Did you go back and review that so that you 
understood the intent of how this was supposed to be handled?
    Ms. Trottenberg. Yeah. I mean, when we do rulemaking like 
this, we do go back and look at congressional intent. I think 
here clearly, you know, I think we would admit we didn't get it 
right and, you know, we are trying to fix it as quickly as 
possible.
    Mr. Luetkemeyer. Okay. Well, that is kind of curious, 
because I know this is what Mr. Lankford of Oklahoma, and he 
was representing the Panhandle and using that as an example of 
the 150 air miles, because obviously looking at Oklahoma, it 
has got just, you know, a sliver of land out there. So 
obviously the intent was to be able to go across State lines, 
so I have a hard time understanding how this could happen.
    Did you contact the Farm Bureau at all with regards to 
making this rule before the rule was implemented?
    Ms. Trottenberg. Yeah. I mean, I can check with--I believe 
we did contact the Farm Bureau. But, look, obviously, you know, 
I think we recognize here we made some mistakes, we need to fix 
them. And I take your point, we need do it expeditiously.
    Mr. Luetkemeyer. Okay. I appreciate that. With that, again, 
I follow up on Chairman Graves's comment a minute ago, I am 
kind of curious as well, you know, we are talking about working 
across agencies here. Did you contact the Department of 
Agriculture and find out what kind of impact this is going to 
have whenever you put this rule out?
    Ms. Trottenberg. I am looking over at the staff to see. I 
presume we did. I think we usually are pretty----
    Mr. Luetkemeyer. Ms. Cook, do you know?
    Ms. Cook. No, sir. I would have no reason to know.
    Ms. Trottenberg. I think on these types of rules, we are in 
pretty regular communication with USDA.
    Mr. Luetkemeyer. Hmm. And USDA didn't throw a fit over this 
one?
    Ms. Cook. I didn't observe any fits being thrown.
    Mr. Luetkemeyer. Well, I hope you do next time.
    Ms. Cook. Yes, sir.
    Mr. Luetkemeyer. Because I am going to throw one here if we 
don't get this changed, because this is a really big deal to 
lots and lots of farmers around the country. And as you well 
know now, Farm Bureaus are interested in this, all the ag 
groups are interested in this. This is a really, really big 
deal. So I appreciate your looking into it and we will look 
forward to working with your agency. Thank you very much for 
your time.
    I yield back the balance of my time.
    Chairman Graves. Ms. Chu.
    Ms. Chu. Yes. Ms. Hulit, I am interested in the access to 
capital for small businesses. And you stated that you were 
streamlining the paperwork burdens for the 504 and 7(a) loan 
programs. To what extent do you predict that these changes to 
the paperwork will reduce the regulatory burden hours for small 
business, and will there be an increase of lending to small 
businesses as a result of these changes?
    Ms. Hulit. Certainly. As I mentioned in my testimony, we do 
expect a significant decrease in the burden hours, but we do 
expect an increase in availability of capital and increase in 
our loans. We project about 47,000 loans over a 5-year period 
will occur as a result of these changes, resulting in about $30 
billion in additional financing, supporting about half a 
million jobs over the 5-year period.
    Ms. Chu. And how have you reduced the regulatory burden for 
these small businesses?
    Ms. Hulit. Well, the two key areas are the personal 
resources task and the affiliation requirements, and those are 
significant paperwork burdens that are required to demonstrate 
a small business is a small business. The affiliation rule, for 
example, is the same rule, the demonstration requirements for 
government contracting apply to the loan programs, which is a 
disincentive for making an application through our 504 loan 
program. We have seen a voluminous amount of tax returns and 
financial statements needed to demonstrate that they are not 
affiliated with a larger company, so we streamlined the 
affiliation rule to mirror what we did in the SBIC program.
    Ms. Chu. And how did you happen to focus in on these? Did 
your agency work with lenders and small businesses in coming up 
with these new requirements?
    Ms. Hulit. Thank you for asking. We have conducted 
extensive outreach. We conducted over 120 roundtables with 
small businesses across the country over a 1-year period to 
hear what were the most complicated factors about our loan 
programs and what they would like to see changed.
    Additionally, we worked with NADCO, the trade association 
for the CDC community over a 6-month process. We called our 
Reinvigoration Committee to get their priority list on what 
would be most impactful, both statutorily, regulatorially, as 
well as our SOP changes to make the program more user friendly. 
So we had a lot of outreach.
    And these two changes, the personal resources test and the 
affiliation test, were the number one and number two priority 
changes that were identified.
    Ms. Chu. Thank you.
    Ms. Hulit. You are welcome.
    Ms. Chu. Ms. Trottenberg, I wanted to commend the 
Department of Transportation for your efforts in implementing 
the President's Executive order. I have no doubt that the 
extensive regulatory review that your agency conducted was very 
time consuming and labor intensive. And like DOT, all agencies 
face a tradeoff in allocating their limited resources and 
conducting regulatory reviews as other mission critical 
activities.
    From your experiences, what would you consider the most 
effective way to conduct regulatory reviews and ensure that the 
agency is getting the greatest net benefit from these reviews 
without utilizing resources that would be better used in other 
activities?
    Ms. Trottenberg. Yeah. Thank you, Congresswoman. And I 
think one of the things we are trying to do a better job of, 
and I hear some of the members on this Committee having 
concerns about it, finding new ways to do better outreach to 
the public, to small businesses, to all the interested 
stakeholders. And there are a lot of new technologies out 
there. Federal agencies are--I mean, there is a CIO here, but 
we are often a little lumbering when it comes to adopting the 
latest technologies and using social media, but in terms of our 
outreach now and the regulatory process and in all the other 
things we are doing, we are really trying to improve on that 
score. And I think you can reach a lot more people, we are 
trying to use a lot more online tools, dialogues, webinars, you 
name it, where we can get a lot more input and reach people and 
businesses all over the country, but, you know, potentially 
reduce costs by not having to fly us or fly them all over the 
place.
    So I think there is a lot we are trying to do there and I 
think it is really yielding some good results. When we put out 
things for discussion and comment, we can now get thousands of 
people engaging in live debates where they can go back and 
forth online, and it is producing some really great results.
    Ms. Chu. And would anybody else on the panel want to 
respond?
    Ms. Hulit. I would just like to say as well, in addition to 
the outreach that we have done across the country, not just on 
the capital access side, but our other departments in the 
agency, we have gotten a lot of personal feedback, but our 
social media tools have been critical. We have a much more 
enhanced interactive ability to communicate with small business 
borrowers. We have the hits on our website are significant, as 
well as through, you know, Facebook, Twitter, et cetera, we get 
our message out.
    Ms. Cook. USDA is blessed with a network of almost 3,000 
local offices, and our employees are going to the grocery 
store, they are going to church, they are sitting at Little 
League games, the very people that they are working with, so we 
have had an excellent network for getting customer feedback for 
a long time.
    In addition, though, the advent of social media has just 
really taken off for us in ways that, frankly, my office had 
not anticipated. Now in my current role, the thing that keeps 
me up most at night is the constant demand for more network 
bandwidth to accommodate social media. And, you know, I see no 
end to that. It is the thing that we are working on the most 
every single day in the CIO's office.
    Ms. Chu. Thank you. I yield back.
    Chairman Graves. Mr. Schweikert.
    Mr. Schweikert. Thank you, Mr. Chairman.
    You actually just said something that has completely 
changed my direction of the question. And forgive me if I 
mispronounce. Is it Hullett?
    Ms. Hulit. Hulit.
    Mr. Schweikert. Hulit. Okay. Sorry.
    Ms. Hulit. Hulit.
    Mr. Schweikert. It always helps if I actually put these on, 
because I can't actually read any of the name plates from here.
    First of all, for SBA, standard operating procedure manual, 
how big is it?
    Ms. Hulit. Hefty.
    Mr. Schweikert. And mechanically when you have done sort of 
these reviews, sort of the mechanics and duplication and sort 
of the bureaucratic mechanics, is that one of the things you 
really spend time delving into, saying, this is our standard 
operating procedure?
    Ms. Hulit. Yes. As a matter of fact, we are in the process 
of updating our 50.10.5 SOP, which is our loan origination SOP, 
our loan servicing origination and oversight. And what we are 
trying to do there is really simplify and streamline the SOP, 
make it much more user friendly. I can attest to the fact that, 
coming from a lending environment where our credit policy 
manuals are pretty hefty too, there is content that needs to be 
there, but it needs to be presented in a way that is user 
friendly, and we are working on that.
    Mr. Schweikert. Well, if I remembered your resume, you had 
been a mid market lender at one point.
    Ms. Hulit. Correct.
    Mr. Schweikert. So you have had this sort of experience 
with here is our standard--or here is--actually, you refer to 
it, or your agency refers to it as standard operating 
procedure. I assume you also mean best practices, because as 
you know, sometimes best practices, saying we do it in this 
format, don't have to be nearly as specific, you know, in line-
by-line detail.
    Ms. Hulit. I guess I am not sure where you are going with 
that.
    Mr. Schweikert. I am trying to understand, as you go back 
and are reviewing your standard operating procedures, does it 
really have to be, as you call it, hefty?
    Ms. Hulit. I think it can be improved, as I said. And we 
are working on improving it and getting more clarity to our 
lending partners so they understand what the expectations are 
without having to go through volumes of paperwork.
    Mr. Schweikert. And now to the point where your previous 
testimony sort of changed where I was going to go with this, 
are you using your social media platform to help you refine 
that and make it simpler and easier to understand?
    Ms. Hulit. Our SOP is a available through our sba.gov 
website and the lender portal that our lenders utilize for----
    Mr. Schweikert. You have to have a really big bandwidth to 
be able to download it all.
    Ms. Hulit. They don't need to download it all. They can go 
to sections that are pertinent to their activities.
    We also obviously, we have about 90 percent of our loan 
applications are submitted electronically through our e-tran 
system. So we have several initiatives, not just what we are 
doing currently, for electronic application for our loans, but 
we have a process called SBA One, which is in the President's 
2014 budget, which will streamline and make electronic the 
application process from the borrower's experience, the lender, 
the lender to the agency and for our oversight. So we have an 
initiative that is underway to use technology to make our SOP 
and our process a lot more streamlined.
    But your concern about the depth of our SOP, yes, there is 
room to improve not only what we are trying to communicate in 
the SOP in terms of direction to our lending partners, but also 
how it is presented.
    Mr. Schweikert. Okay. And that goal is simplification?
    Ms. Hulit. Absolutely.
    Mr. Schweikert. Because I have had the pleasure about a 
month or two ago sitting down with a number of my SBA lenders 
in Arizona, and they have had good relations with sort of the 
regional offices, but there is a sense of frustration that 
things change, and the notification process back to them, and 
often they are filling it out the way they know how, and then 
they get a rejection saying, oh, you missed something, we 
changed that a month ago.
    Ms. Hulit. Uh-huh.
    Mr. Schweikert. Fair criticism?
    Ms. Hulit. Fair criticism. Our changes are published both 
electronically, they are available on our website, and our 
district offices should be communicating that, and they are 
training with their lending partners as well, but there is 
always room for improved communications.
    Mr. Schweikert. Well, Mr. Chairman, just sort of a final 
comment. The old saying, I believe it had something to do with 
there is two ways to keep people from knowing something: don't 
tell them, or tell them so much they are overwhelmed. And as 
you say, when something is hefty and certain changes happen 
into it, it is often going to slip through the cracks. So I 
hope that is--because that was the one real frustration I was 
getting from my lenders, is we need a simplified way to know we 
need to change how we put data on this line or the mechanics.
    Ms. Hulit. I would like to say that exactly the feedback 
that you are talking about is precisely what we are 
incorporating into what we are trying to do in our next version 
of the SOP, which is to simplify our programs and simplify the 
SOP as well. So that feedback has been heard loud and clear in 
the agency. It is an ongoing process and we are working in that 
direction.
    Mr. Schweikert. I appreciate it. And thank you, Mr. 
Chairman. Yield back.
    Chairman Graves. Mr. Schrader.
    Mr. Schrader. Thank you, Mr. Chairman.
    Well, it all sounds very complicated to this little country 
horse veterinarian still, so I hope my other small business 
colleagues can find their way through the processes that you 
all have out there.
    Very specifically, I guess, Ms. Cook, I also serve on the 
Ag Committee, and there has been a lot of discussion by the 
chairman and the ranking member both of the challenges USDA 
faces with technology. Indications were, at least a year or two 
ago, that we are still primarily a cobol-based system and cloud 
computing, and desktop technology was not really there yet in 
USDA. Is that still an accurate view of USDA?
    Ms. Cook. Again, USDA is a collection of 19 different 
agencies and 10 staff offices, each of which get their own 
appropriations for things like IT, and we have haves and we 
have have nots.
    I don't think I can overemphasize the significance of MIDAS 
coming out. That is 10 years in the making. Getting that----
    Mr. Schrader. But the backbone of USDA is still cobol-based 
technology?
    Ms. Cook. The agencies that I came from, the rural 
development agencies, many of our programs are still mainframe 
cobol-based.
    Mr. Schrader. You have been hit by the sequester, like 
every other agency out there, some $2 billion or whatever. 
Given the different opportunities you have had and some of the 
work like MIDAS, what role has technology played hopefully in 
helping you still deliver good service with these tough, tough 
reductions?
    Ms. Cook. You know, technology has been the promise for a 
long time in USDA. We have seen the number of offices reduced, 
we have seen the number of staff reduced. We have brought 
technology to the extent funds allowed. We just last year 
completed the process of upgrading servers and routers in those 
local offices----
    Mr. Schrader. Great.
    Ms. Cook.--really for the first time since 2000, 2001.
    Mr. Schrader. Do you have an ongoing account deferred 
maintenance, our how ever you want to term it account, to help 
upgrade over time?
    Ms. Cook. We do for the field-based agencies, for the Farm 
Service agencies, Natural Resources, Conservation Service, and 
Rural Development.
    Mr. Schrader. But not so much the rest, so----
    Ms. Cook. Not so much the rest.
    Mr. Schrader. Okay. New program, micro loan program. How is 
that working? It sounds like you are getting some real good 
applications.
    Ms. Cook. Yeah. The Farm Service Agency has initiated a new 
micro lending program specifically to be more risk based in 
their lending, let them serve smaller producers for whom that 
$15,000 or $20,000 for even a used tractor or a piece of 
equipment makes all the difference in being able to stay in 
operation or not. It is going very well.
    Mr. Schrader. Very good. Is there an increase in 
applications? It is a fairly new program.
    Ms. Cook. It is a fairly new program, but the outreach has 
been good. FSA also enjoys a network of State and regional 
offices, local offices that have been providing outreach to 
producers.
    Mr. Schrader. I appreciate that. There are a lot of small 
farmers. They are not all huge agribusinesses out there, and--
--
    Ms. Cook. No, they are not. Most farmers actually have 
other sources of income in addition to their farm income. And, 
you know, keeping them on the land and in their community has 
been one of or objectives since the Lincoln administration.
    Mr. Schrader. I guess the last question for me would be for 
all three of you. We have focused on rules and regulations that 
your agencies put out, and you are reviewing those and deciding 
which are perhaps appropriate in this environment and which are 
not.
    How about looking at what we tell you to do, the statutory 
guidelines? And I know it is always tough to take on the egos 
here in Congress, but it would be perhaps easier to deal with 
the regulations if you are able to get rid of some of the laws 
that we pass, all in earnestness and maybe with good intent, 
maybe appropriate 20, 30, 40, 50, 100 years ago, but in today's 
transportation, small business and agricultural systems really 
don't apply.
    Has there been any attempt as you have gone through the 
President's directive and your own internal workings to look at 
some of the laws and statutes that really perhaps take more 
time than they are actually worth, and maybe give this 
Committee and other Committees in Congress some guidance about, 
could you consider reviewing, however politically correct you 
want to be, consider reviewing some of these brilliant ideas 
you had to the past?
    Let's start with you, Ms. Cook.
    Ms. Cook. Okay. Well, as you know, USDA gets much of its 
statutory authority in 4 to 5-year increments through the 
periodic enactment of what is called a Farm Bill, generically. 
We are overdue----
    Mr. Schrader. Yep.
    Ms. Cook.--by a year, and so part of our regulatory review 
process----
    Mr. Schrader. We will be fixing that in 2 weeks.
    Ms. Cook. Cool.
    Part of our regulatory review process was indeed looking at 
anticipated statutory changes in what would have been the 2012 
Food, Farm and Jobs Bill----
    Mr. Schrader. Okay.
    Ms. Cook.--to see whether there might be areas to 
streamline regulations by first streamlining legislation. And 
to give you just one example out of Rural Development, because 
I lived it for 11 years in the field and here in D.C., we have 
currently 11 different statutory definitions of the term 
``eligible rural area,'' and as you are trying to streamline 
your application processes and, you know, even be able to put 
up one map on the website that says this is rural, this isn't, 
we can't do that yet. And it confuses us, let alone the people 
that we serve sometimes trying to determine whether a 
particular project in a particular location is eligible for 
this program but not that program over there. And, you know, we 
can do better than we have been doing.
    Mr. Schrader. Well, my time has expired. I don't want to 
take a lot, but if you have other--if you could get those to my 
office, and Ms. Hulit and Ms. Trottenberg, get something like 
that to our office and maybe even the Committee as a whole, I 
would sure appreciate that, so we can, you know, do a real 
introspective review.
    And I yield back. Thank you, Mr. Chair.
    Chairman Graves. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    To start with, I will share my bias. I have spent 35 years 
as a small business owner. I think we have too many 
regulations. So that is a bias, so I will start with that.
    I am just curious, you know, when you come to work and use 
the word ``vision,'' do you think we have just the right number 
of regulations, do you think we have too many regulations, or 
do you think we need more regulations, kind of as a start maybe 
for a little give and take here.
    Ms. Trottenberg. I am happy to jump into that. And I think 
I will agree with you, we have too many, but I think I--I think 
it is worth--and actually it goes a bit to the previous 
gentleman's question about why we sort of find ourselves where 
we are.
    I think at DOT when we were preparing for this hearing, I 
asked, well, where do all our regulations comes from? The 
majority of them come from the authorizing committees of 
Congress. You know, I will give you a good example. MAP-21, we 
just had an authorization bill passed in transportation last 
year. It was a very popular bill, passed with bipartisan 
majorities in the House and Senate, President signed it. It has 
100 new legislative mandates for DOT, which we estimate will 
incur 50 to 60 new rulemakings, half of which will be done by 
the Federal Motor Carrier Safety Administration.
    Mr. Collins. Not to cut you off, but I am just curious. Ms. 
Hulit.
    Ms. Hulit. I would agree. My----
    Mr. Collins. Okay. I'm just trying to set the stage.
    Ms. Hulit. Yes. Certainly.
    Mr. Collins. Ms. Cook?
    Ms. Cook. I would agree, although for us it is more 
qualitative than quantitative.
    Mr. Collins. All right. So if we come to work, and we all 
know and small business knows we have too many, and I will be 
audacious enough to say 50 percent too many, 25 percent, a 
really big number. And if we agree there is too many, is there 
an attempt by any of the agencies to actually numerically 
reduce the number, like to come to work and say today we are 
going to delete 10, or this week we are going to delete 100 or 
this month 1,000, and do you track it? Do you know, for 
instance, over the last year, how many new regulations have 
gone in? I mean, that is a specific number. And how many, if 
any, you have deleted? So has the number gone up, down, or 
stayed the same? And if our goal is, and we all agree we have 
too many, I would like to think every month somebody should 
say, we just introduced 100 new regulations and we deleted 120, 
so net negative 20, we are getting where we need to go. Does 
that thought process even exist within your agency or does 
anyone track it or not?
    Ms. Trottenberg. I mean, I think the thought process exists 
to see if there are ones that we can eliminate, but again, most 
of our regulations are statutory.
    Mr. Collins. No. I hear that, but----
    Ms. Trottenberg. They come from Congress or they come 
from----
    Mr. Collins. No. I hear that.
    Ms. Trottenberg.--the NTSB or GAO has made. So I----
    Mr. Collins. In my world, that is defending the fact that 
they keep growing.
    Ms. Hulit?
    Ms. Trottenberg. It is not defending it, but it is just the 
agency can't unilaterally undo a congressional mandate.
    Mr. Collins. Okay. I call it defense, but go ahead. Ms. 
Hulit.
    Ms. Hulit. I would agree with Ms. Trottenberg. It sounds 
easier than it is. We are in the process of making some simple 
changes to our loan programs, it has taken us over a year. It 
is very challenging.
    Mr. Collins. Ms. Cook?
    Ms. Cook. I would look at the diversity of the communities 
that we serve. I don't know that a total number really gives 
you, again, a qualitative view at whether life is better or 
worse for a farm or ranch, compared to a meat packing plant, 
compared to an energy company, compared to a school providing 
school breakfast to know that you have made life better or 
worse.
    Mr. Collins. Well, I guess what I will do--I kind of pretty 
much anticipated this. And I just would give you my 
observation. If we all agree, and we did, we have too many 
regulations, the way to have fewer is to measure where we are 
and to measure it quantitatively, daily, weekly, monthly, to 
have a report, but also to have a process that would say our 
goal here is to reduce it, and pick a number, you know, pick 
some audacious number, we want to cut 10 percent of our 
regulations. How many is that? Is it 1,000, is it 5,000? If you 
don't measure it, if you don't hold yourself accountable, but 
are defensive to say Congress in fact by passing laws is 
creating more and more regulations, we are never going to get 
where we all started out agreeing. We have too many 
regulations. You have to measure it. You have to hold yourself 
accountable. And I would hope maybe you could take that back 
and at some point, if I said what is the data, did we go up, 
did we go down, did we stay the same, you could snap your 
fingers and that number would come out, because we are never 
going to get a reduction of regulations if that is not one of 
the reasons we come to work every day. Just don't know if you 
will agree or disagree. I got 20 seconds. Do agree or disagree 
that is reasonable?
    Ms. Trottenberg. I mean, I understand your approach. Again, 
I feel like the challenge we face--I mean, I mentioned MAP-21.
    Mr. Collins. So you disagree.
    Ms. Trottenberg. You know, we didn't write them.
    Mr. Collins. Ms. Hulit?
    Ms. Hulit. I don't think I can answer that question as 
simply as it is stated.
    Mr. Collins. Okay. It was kind of a yes-no, but go ahead, 
Ms. Cook.
    Ms. Cook. Speaking from my own personal experience, when we 
tried this in the 1990s a lot of things moved out of 
regulation, where there was public comment and transparency, 
and into the very handbooks and other things we have been 
talking about that don't have opportunities for public comment 
and don't necessarily have transparency. So, again, I am not 
sure a total number of reduction actually gives you a better 
result at the end.
    Mr. Collins. Well, I thank you all for your--I know my time 
is up, but I would say I think we need more of a focus on 
reducing regulations, and I am disappointed somewhat to hear 
that is clearly not likely to happen. Thank you.
    Mr. Chairman.
    Chairman Graves. Mr. Rice.
    Mr. Rice. Thank you, sir.
    I am real concerned about American competitiveness. And I 
have got some graphs and figures here that show that, you know, 
in fact regulations have just ballooned in the last 4 years, 
growing by, you know, 30, 40 percent. And I see reports here 
from CBO that the regulatory requirement complying with it 
costs small businesses over $10,000 a year. And I have watched 
over decades, you know, we lose millions of American jobs every 
year. We blame people for outsourcing, but in fact--you know, 
and you say it is because of low wages, and I am sure some of 
that is true, but I also am convinced that the second highest 
reason is because of our regulatory framework. Complying with 
that is too expensive, too time-consuming and it forces 
businesses overseas. And I don't think we take seriously enough 
the threat that this regulatory framework is to our economy 
and, in fact, the very sovereignty of this country. You know, I 
serve on the T and I Committee, Transportation and 
Infrastructure, and the scariest thing I have heard since I 
have been in Congress is that the Port of Miami has been trying 
to get Federal approval to dredge their own port with their own 
money for 14 years. You know, that goes to the very 
competitiveness of our country, goes to the core of our 
national security. And if we don't take this seriously and do 
something about it, I don't see--you know, it is just going to 
get worse and worse and worse.
    So my plea, my very strong and sincere request is that we 
take this extremely seriously and we hit the reset button. You 
know, I hear people--I am a CPA and a tax lawyer. I hear people 
talking all the time about zero-based budgeting, that we should 
start from zero every year. Actually, I am less concerned about 
that than I am about zero-based regulation. Maybe we should 
just throw this stuff out and start over again, because truly, 
if it takes 14 years to get that kind of approval--we are 
working on trying to get a permit for I-73 in South Carolina, 
we have been working for 6 years now, and the end is not in 
sight. You know, we have very limited dollars for 
infrastructure investment. It is so hard to find those dollars, 
yet we spend such a large percentage of those very limited 
dollars on complying with, you know, this enormous regulatory 
structure.
    I know I am picking on you in transportation.
    Ms. Trottenberg. And, Congressman, listen, I think we agree 
very much that the permitting process in transportation takes 
way too long. USDOT has been putting a lot of effort into that, 
as has the administration. Speaking of the question of agencies 
working together, we have a whole cross-agency effort to try 
and improve the permitting time. And we agree port dredging 
takes way, way too long. But, again, I guess I have to 
reiterate, if you wanted to start all over again, again, many--
all of the regulatory framework is statutory. It does--I mean, 
not to say agencies don't have a role, but much of what we do 
is mandated by Congress, and so if we wanted to peel it away, 
we would need do that with you.
    Mr. Rice. Well, here I come to Congress, I have been here 
for 4 months, I am a tax lawyer. What I need is your 
suggestions, because I want to know where we start in reducing 
this red tape and getting these approvals for the Port of 
Miami. You know, there is two ports on the East Coast that are 
going to be able to take these post-Panama ships. Two. If we 
started digging today----
    Ms. Trottenberg. A lot more argue that they will.
    Mr. Rice. If we started digging today, they wouldn't be 
ready. We have got Baltimore and we have got Norfolk. Florida 
wants one. What is it going to take to get the approval? You 
know, Charleston, Savannah. I mean, go down--this is at the 
very heart--this will absolutely destroy millions of American 
jobs.
    We had the representative of Maersk Shipping Line, the 
largest shipper in the world, was in our subcommittee last 
week, or 2 weeks ago. He said they were building transfer 
stations in the Caribbean so they wouldn't have to deal with 
the United States Government. It wasn't that long ago people 
would come here because they wanted to deal with us versus 
other people. Now it is reversed.
    We have to take the burden off. We have got to reduce this 
pile of regulation. We have got to get very serious about it. 
And it is not happening. I mean, despite your earnest effort, 
and I am sure they are earnest efforts, these reports that I 
have got here show in fact the regulatory burden is growing at 
an ever-increasing pace, faster than it ever has. So we have 
got to find a solution.
    Thank you very much.
    Chairman Graves. Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. And I thank 
the ranking member in absentia. I understand she will be 
rejoining us shortly.
    I would like to also thank our witnesses for their 
testimony today. And my question is for Ms. Trottenberg. 
Section 610 of the Regulatory Flexibility Act already requires 
agencies to review regulations within 10 years of their 
adoption for their impact on small businesses. Do you believe 
that Executive Order 13563 has basically made Section 610 
reviews unnecessary?
    Ms. Trottenberg. No, I don't think they are unnecessary. 
And, again, at DOT, as I mentioned in my testimony, we have 
been doing a regular regulatory review for 35 years and we have 
that 10-year cycle, but obviously the President's Executive 
order, I will admit they put a new focus in our agency and 
brought together really dozens of experts throughout all our 
modal administrations to really take a fresh look and to again 
engage I think in a very robust process of public outreach, 
outreach to businesses, outreach to stakeholder groups. And we 
got--you know, again, we got dozens and dozens of creative 
ideas, and now we are tracking them on this report that we are 
putting out every year.
    Ms. Clarke. And would the other witnesses agree or do you 
have a different take on the comparative nature, assuming that 
some of it may be duplicative? What is your take on it? Ms. 
Cook, Ms. Hulit?
    Ms. Cook. Section 610 of the Regulatory Review Act does 
provide the criteria that we used in responding to the 
Executive order, so one informed to the other rather than 
duplicated.
    Ms. Hulit. I would agree. And as a small agency, we have 
constant contact with our client base and we are constantly 
looking at our regulations and seeing what we can do to be more 
streamlined.
    Ms. Clarke. Mr. Chairman, that is basically it for me. I 
yield back the balance of my time.
    Chairman Graves. Thank you very much.
    Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    I regret I only have I guess 5 minutes for a pretty 
important topic. I sure wish someone was here from the EPA and/
or the IRS. That would probably be number one and two for 
complaints, but the USDA is here, and I appreciate that. I want 
to note particular regulatory issues that I did bring up with 
the Secretary nearly 2 years ago. Under RUS apparently there is 
an effort underway to limit construction of a power plant in my 
district because USDA would like to have some major 
environmental reviews because they happened own other property 
on the site. Are you aware of this situation in western Kansas, 
and what has the Secretary done to allow this project to go 
forward and create hundreds and hundreds of new jobs?
    Ms. Cook. Congressman, I am not aware of this particular 
issue, so let us back get back to you.
    Mr. Huelskamp. Okay. I appreciate that. It would be related 
to the Sunflower power plant.
    A second issue, which actually brings up the--has had the 
most constituent complaints over the last 2 years for my 
office, and that would be your proposed changes and mandates to 
the school lunch program. And we are well aware that was 
coming, because the folks that run those programs said it is 
going to be a major disaster, and it has turned out to be the 
case. Plenty of evidence that good intentions don't always 
work, especially when you are trying to mandate from Washington 
what should happen in 100,000 school districts.
    And I have looked at the legislation that did pass, and I 
don't believe it required restrictions, for example, on how 
much fruits and vegetables a school district could actually 
serve. Can you explain how the USDA reached a decision that 
they wanted to limit access to fruits and vegetables in the 
school lunch menu?
    Ms. Cook. No. So let us get back to you on that as well. 
You know, I am familiar the Healthy Hunger-Free Kids Act, but I 
would be reluctant to try to answer that particular question.
    Mr. Huelskamp. Okay. And a second one to follow up on that 
would be related. Can you explain why the USDA decided to limit 
access to meats and dairy in that same particular program? I 
presume you don't have an answer to that, but the third one and 
a follow-up would be, for many of my rural school districts, 
kindergartners and seniors in high school actually go through 
the same service line in these small districts. Under your 
regulations, the limits placed on the kindergartners as far as 
what they can be served in terms of calorie limits are the same 
ones placed on an 18-year-old. I would like a response from the 
USDA of exactly why that actually makes sense. And those are 
three of those areas.
    An issue for DOT I would like to ask about that has been 
coming up particularly for those in the harvest business, I am 
a farmer myself, but the transportation of modern farm 
equipment that might exceed the normal lengths for moving 
equipment, moving across roads and--is there any update on what 
DOT is trying to do to make sure we meet the 21st century 
requirements in modern agriculture?
    Ms. Trottenberg. Yeah. MAP-21, again, the transportation 
bill that Congress passed last year has actually tasked us with 
doing a very comprehensive new look at all the truck size and 
weight issues, and actually we have that process underway. We 
are going to be doing outreach and obviously reaching out to 
the agricultural community, the business community, truckers, 
you name it. So we are hoping, yes, to take a look at how we--
you know, we have a patchwork system with different State 
regulations overlaid with Federal law, and we are going to try 
and look at, you know, what might be a 21st century solution to 
some of those questions.
    Mr. Huelskamp. Do you think we are going to actually make 
progress on that? I wanted stronger language in there. I don't 
think Congress has been too specific on that, but curious to 
what you actually think will occur out of that.
    Ms. Trottenberg. Well, I hate to prejudge it, because I 
have to say, you know, we have talked about some contentious 
issues today, and this one might be the most contentious that 
we face in transportation. As you are probably aware, there are 
strong feelings on all sides. And, again, I know there were a 
lot of folks in Congress who were hoping to get actual 
legislative language telling us what to do, and the best they 
could agree upon is to have us study it. You know, we are going 
to do a really thorough job. We are well aware of the desire in 
the agricultural community and the business community to try 
and, you know, up truck size and weight in different places. We 
also have a very, very strong safety advocacy community, as you 
know, who feels very strongly that we shouldn't. And, you know, 
again, just as we try and do in our rulemaking, I hope we are 
going to get good public input and use good science and good 
economics to try and come up with some good solutions.
    Mr. Huelskamp. I look forward to that.
    And lastly for the USDA, if we could have some comments on 
the proposed listing of the Lesser Prairie Chicken. Again, that 
is another agency. What is frustrating to me is, you know, my 
farmers and ranchers and oil and gas folks, they could care 
less which agency it is, all they know is it is coming from 
Washington and they recognize the listing of this Lesser 
Prairie Chicken will have a significant impact on the future of 
agriculture in western Kansas and five other States. And I 
haven't seen any comments from the USDA about this, because it 
is another agency. So I look forward to if the Secretary could 
step up and defend agriculture, as hopefully I believe I will 
expect him to do.
    So I yield back, Mr. Chairman. Thank you.
    Chairman Graves. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    And I would like to echo my colleague's comments in regards 
to Greater Sage Grouse and the Prairie Chicken. We have got the 
overlapping regulatory issues that are certainly coming in, and 
we would like to hear that as well. It is of great concern.
    I would like to thank our panelists for taking the time to 
be able to be here today. And all of your respective agencies 
did comply with the Regulatory Flexibility Act and consider the 
potential negative effects that new regulations have on 
businesses? We can just go down the line.
    Ms. Trottenberg. We certainly do. And we also try and 
consider very much the cumulative effect that potential rules 
and regulations have. It is a very big part of our review 
process, and we really do try and do the math on it and make 
sure that we are reducing the burdens as best we can.
    Mr. Tipton. Good. Ms. Hulit?
    Ms. Hulit. I would say as well we take it very seriously. 
We have the Office of Advocacy within the SBA. We work very 
closely with the Office of Advocacy of what they are hearing 
and inform our decisions.
    Mr. Tipton. Ms. Cook?
    Ms. Cook. Yeah. I would agree with that. We are looking on 
the regulatory side both at making it easier to find the rules 
and comply with the rules through electronic permitting and 
certification. We are also trying to reduce the paperwork 
burden for our financial and technical assistance programs as 
well.
    Mr. Tipton. Great. So we have unanimous agreement that, you 
know, we are striving to be able to reduce that.
    And I would like to go back to some of the previous 
questions that have been asked. We have the evidence that it 
has come to this Committee that we are spending $10,585 per 
employee for small businesses to be able to comply. I 
understand that we have the 10-year review process, we have the 
Executive order from the President. And does this remind you a 
little bit of being on a treadmill? We run in place, we don't 
really reduce any regulations?
    Can you point to me, going to the point of the hefty 
manuals as an example, and I am not trying to be mean spirited 
on that, because you have to try and comply, but how many 
rules, how many regulations over the last decade have we pulled 
back compared to how many we have added?
    Ms. Trottenberg. Yeah. I admit, I think we have pulled back 
very few. And, again, as I was saying, you know, one of our 
agencies, I think one that gives this Committee some 
frustration, last year Congress has tasked them with another, I 
think it is about 30 new rulemakings. So even if we could pull 
a couple back, there is no question in terms of the net number, 
it is increasing. But, you know, I guess my plea would be, the 
agencies have their role to play, but Congress, the NTSB, there 
are a lot of different entities involved in sort of the 
rulemaking structure that we have in place. It is not just 
something agencies can unilaterally repair.
    Mr. Tipton. Let me ask just kind of a general question that 
many of us have discussed here. Would it be useful before your 
rules go final to bring them back to the authoritative 
committees for approval?
    Ms. Trottenberg. Well, that is a good question.
    Mr. Tipton. Would you agree to that?
    Ms. Trottenberg. It is probably not up to me to agree to 
it. I think that is something Congress could tell us to do any 
time they would like to.
    Mr. Tipton. Director Jackson of the EPA just told me no. 
She didn't want to be able to come back.
    Ms. Trottenberg. Oh.
    Mr. Tipton. Don't you think, because you are doing 
interpretation effectively of legislative intent----
    Ms. Trottenberg. Correct.
    Mr. Tipton.--which may lead the agencies to be making 
determinations which in fact may not comply with legislative 
intent, so wouldn't it be a good commonsense proposal to be 
able to bring those back to the Committees and say, we agree 
with you or we disagree with you in these areas, to be able to 
help you achieve the goal that you are aspiring to?
    Ms. Trottenberg. Yeah. And I would have only two thoughts 
on that. I mean, one is as we do our rulemakings, we are 
involved in the Administrative Procedures Act, which, again, is 
a lot of congressionally-mandated steps, so in terms of when we 
can go back to Congress and what you can tell us to do, believe 
us or not, I would like to consult the legislative framework 
that we work under.
    I would also say that we frequently in the agencies go back 
to Congress to try and get congressional intent. I would point 
out, let's look now that we have a divided Congress, sometimes 
congressional intent can be not as easy to divine as you might 
hope. And, you know, this Committee is charged with reducing--
you know, one of the things you are looking at is reducing 
regulatory burdens on small businesses. Our authorizing 
committees, who are the ones who give us a lot of our 
regulations, they are meanwhile very much urging us to hurry up 
and start doing these rulemakings. So sometimes Congressional 
intent can be complicated, even contradictory. But I understand 
the spirit of, you know, what you wish we could do, which is in 
the end produce a product that those in Congress who wanted us 
to produce it feel achieve their ends.
    Mr. Tipton. Well, one, we can give you a little bit of 
insight, or at least from my perspective. We had had the rules 
that were coming out of the Department of Transportation, out 
of the EPA in terms of light trucks, which is going to be 
another, what, $8.8 billion in terms of costs that are going to 
be associated. This is harmful when we are struggling to be 
able to create jobs. And the goal, in my sense, right now when 
we have massive unemployment in rural America, we have a 
struggling economy with only pockets of prosperity in this 
Nation right now, it is not to add on more burden, more 
regulatory authority, but to be reducing this, to unleash 
American entrepreneurialism.
    And my time has expired, Mr. Chairman. I yield back. Thank 
you, ladies.
    Chairman Graves. Any other questions?
    Seeing none, I want to thank all of our witnesses for being 
here today. And we will continue to monitor agency efforts to 
review existing regulations, and we would just ask that the 
agencies, all the agencies renew their efforts to identify 
regulations that affect small businesses and consider ways to 
reduce burdens.
    And with that, I would ask unanimous consent that all 
members have 5 legislative days to submit statements, 
supporting materials for the record. Without objection, that is 
so ordered. And with that, the hearing is adjourned. Thank you.
    [Whereupon, at 2:30 p.m., the committee was adjourned.]
                            A P P E N D I X


                              STATEMENT OF


                           POLLY TROTTENBERG


                       UNDER SECRETARY FOR POLICY


                   U.S. DEPARTMENT OF TRANSPORTATION


                               BEFORE THE


                      COMMITTEE ON SMALL BUSINESS


                     U.S. HOUSE OF REPRESENTATIVES


                      Agency Progress Implementing


 Executive Order 13563, Improving Regulation and Regulatory Review and


   Executive Order 13610, Identifying and Reducing Regulatory Burdens


                              MAY 8, 2013


    Chairman Graves, Ranking Member Velazquez, and Members of 
the Committee, thank you for inviting me to testify today on 
the subject of agency progress implementing President Obama's 
Executive Order (EO) 13563, Improving Regulation and Regulatory 
Review, and EO 13610, Identifying and Reducing Regulatory 
Burdens.

    I am grateful for the opportunity to present the work of 
the U.S. Department of Transportation (DOT), under the 
leadership of Secretary Ray LaHood, in the area of regulatory 
reform and what our Agency is doing to reduce the burdens and 
costs of compliance for small businesses.

    Through our ongoing review and revision of DOT's rules and 
regulations under those two executive orders, we have been able 
to save American businesses significant time and money over the 
last two years, while continuing to improve safety throughout 
our Nation's transportation system, reduce the environmental 
impacts of transportation, and provide important consumer 
protections for the traveling public.

    We are proud of the work we have done on behalf of the 
American people, and that the U.S. has one of the safest 
transportation systems in the world, but we know that we can 
always do better in the regulatory arena, and I thank the 
Committee for their interest. We hope to work with you to 
address the ongoing challenges we face.

    DOT has, by some measures, one of the largest rulemaking 
responsibilities in the Federal Government. Some of its modes, 
like the Federal Aviation Administration (FAA), the Federal 
Railroad Administration (FRA), and the Federal Transit 
Administration (FTA) combine regulatory duties with other 
programs such as infrastructure development; others, like the 
National Highway Traffic Safety Administration (NHTSA), the 
Federal Motor Carrier Safety Administration (FMCSA), and the 
Pipeline and Hazardous Materials Safety Administration (PHMSA), 
focus primarily on safety regulations and enforcement.

    The rulemaking and enforcement environment is extremely 
important--done right, it helps to prevent crashes and save 
lives, mitigate environmental damage, reduce carbon emissions, 
and provide consumer protection in a cost-beneficial way. The 
regulatory process has produced some of DOT's and the Obama 
Administration's most important accomplishments, including 
raising Corporate Average Fuel Economy (CAFE) standards, 
overhauling pilot rest requirements, improving pipeline, auto, 
bus and truck safety enforcement, and strengthening aviation 
consumer protections.

    And we have done so with robust public and private sector 
participation, the best science and economic modeling 
available, a commitment to using plain, understandable English, 
and seeking non-regulatory and pragmatic solutions that 
minimize burdens and costs for American businesses wherever we 
can.

    The regulatory process is incredibly detailed--building 
upon decades of legislative history--contentious, and often 
litigious, since it affects the operations and costs of the 
regulated industries, such as airlines and aircraft 
manufacturers, automobile manufacturers, commercial truck and 
bus operators, railroads, pipelines, and transit systems.

    And we know this Committee has a special charge to evaluate 
how our rules and regulations affect America's small 
businesses. At DOT, we too are continuously mindful of the 
burdens small businesses we regulate can face. We constantly 
seek opportunities to reduce these burdens--as discussed later 
in my testimony--while advancing our statutory safety, 
environmental, and consumer protection missions.

    Congress itself plays a very large role in the regulatory 
area. While all of DOT's regulatory agenda is authorized by 
statute, a large portion of it is not self-generated but is 
either specifically statutorily-mandated by Congress or in 
direct response to recommendations of the National 
Transportation Safety Board (NTSB), the Government 
Accountability Office (GAO) or the Inspector General (IG). The 
vast majority of statutorily mandated regulations originate 
from regular authorizing legislation for our operating 
administrations.

    For example, last summer Congress reauthorized our Nation's 
highway and transit programs in the ``Moving Ahead for Progress 
in the 21st Century Act'' or MAP-21. The bill, which passed 
with strong bipartisan support, contained approximately 100 
statutory mandates for DOT, which we estimate will result in 
50-60 separate rulemakings in a two-year period of which over 
half are assigned to FMCSA.

    MAP-21's statutorily mandated rulemakings cover areas that 
all of us would likely agree are important priorities--new 
safety responsibilities, especially in transit, pipelines and 
motor carriers, environmental streamlining to save project 
sponsors time and money, and moving to a more performance-based 
transportation system. But some of these rulemakings will add 
further complexity to our existing regulatory scheme and 
possibly burdens to small entities, while some we believe will 
streamline it.

    And we know that one of the most active areas of regulation 
has been under the Federal Motor Carrier Safety Administration, 
which does have a large impact on the bus and trucking 
industry, particularly small and independent carriers, which 
are essential partners with DOT in moving people and goods 
throughout the country.

    To that end, we have been extremely proactive in our 
regulatory review efforts since the President's signing of EOs 
13563 and 13610, with FMCSA leading the charge. One such effort 
is a proposal \1\ under development to rescind the requirement 
that truck drivers submit, and trucking companies retain, 
burdensome paper driver-vehicle inspection reports when there 
are no actual vehicle defects found.
---------------------------------------------------------------------------
    \1\ Proposed rulemaking entitled: ``Inspection, Repair, and 
Maintenance; Driver-Vehicle Inspection Report: (RIN #2126-AB46).

    FMCSA estimates that rescinding this requirement will save 
the trucking industry about $1.5 billion per year, without 
adversely affecting safety. The savings from each report is 
modest, but when you consider it provides almost daily savings 
---------------------------------------------------------------------------
for millions of drivers it has a large impact.

    Additionally, the Agency developed this proposal in 
response to a request from industry to rescind the requirement 
on a much smaller population of carriers. The Agency decided it 
was appropriate to seek public comment on a rulemaking proposal 
to apply this regulatory relief to a much larger segment of the 
motor carrier industry. Since many motor carrier operations are 
small businesses, this is precisely the type of regulatory 
review that provides a direct improvement to the bottom line of 
many small businesses. This rule is currently under internal 
review at DOT.

    FMCSA has also implemented key provisions in MAP-21 that 
reduce the regulatory burden on small farmers, by expanding an 
hours-of-service (HOS) exemption for farm-related operations 
during the planting and harvesting seasons as well as 
exemptions from other operating regulations for certain 
farmers. They published guidance on October 1 to ensure our 
State partners were aware of the regulatory relief provisions 
in MAP-21 so that farmers could take full advantage of the 
statutory exemptions.\2\ The guidance was followed up by a 
final rule published in March of 2013.
---------------------------------------------------------------------------
    \2\ Notification of statutory exemptions: ``Statutory Amendments 
Affecting Transportation of Agricultural Commodities and Farm 
Supplies'' http://www.gpo.gov/fdsys/pkg/FR-2012-10-01/pdf/2012-
24106.pdf

    Also, as directed by the Regulatory Flexibility Act, DOT 
routinely seeks out ways to reduce the effects of its 
regulations on small businesses. Two examples of this are (1) 
indexed hazardous materials carrier registration fees, which 
allow small businesses to pay a lower rate than their larger 
counterparts, that saved small businesses $54 million dollars 
last year and (2) allowances for small railroads to use 
abbreviated safety procedures, in recognition of the lower 
---------------------------------------------------------------------------
level of risk inherent in their operations.

    The President's signing of EO 13563 and EO 13610 
successfully institutionalized many of the regulatory practices 
that the Department has long embraced. In addition to our 
efforts under EO 13563 and EO 13610, DOT has long recognized 
the importance of regularly reviewing its existing regulations 
to determine whether they need to be revised or revoked and has 
had a system in place to do so for almost 35 years. In order to 
carry out President Obama's executive orders, the Department 
took swift action and developed an aggressive implementation 
plan seeking broad input from all our key stakeholder groups 
and the American public on our plan for identifying and 
reviewing existing rules that might be outmoded, ineffective, 
insufficient, or excessively burdensome.

    Our results were encouraging. We held a Department-wide 
public meeting that had about 200 participants, and we received 
roughly 150 comments as a result of our outreach, all of which 
were placed into a public docket for review. Commenters ranged 
from large industry and labor groups to State Departments of 
Transportation, to small businesses such as owner-operator 
motor carriers. The comments received from these groups were 
just as varied as the sources--ranging from detailed critiques 
of our prior regulatory analyses, to suggestions to improve the 
grant management process.

    In addition to the Department-wide public outreach, FMCSA 
recently tasked its Motor Carrier Safety Advisory Committee 
(MCSAC) to provide FMCSA with ideas and concepts to make its 
reviews under the Regulatory Flexibility Act more effective for 
both the Agency and the private sector. MCSAC provided its 
recommendations in April, and they suggest ways of increasing 
the level of public engagement to ensure we fully address the 
concerns of small businesses.

    We are also committed to using plain English so that small 
business owners and the general public can understand what we 
are proposing, understand our methods for estimating the costs, 
and understand how to respond to us in a way that allows us to 
consider other alternatives for addressing the safety 
challenge, at a lower cost. All of our proposed rules and 
communications with the public incorporate a robust effort to 
make sure they are understandable. Our guidance on this can be 
viewed at our plain language website.\3\
---------------------------------------------------------------------------
    \3\ http://www.dot.gov/regulations/plain-language

    To make certain our rules are reviewed in accordance with 
these requirements, DOT publishes a plan listing all our 
regulations and assigns each to a particular year for review 
over a 10-year period \4\. We then update the plan each Fall, 
including brief reports on the progress made on the reviews.
---------------------------------------------------------------------------
    \4\ http://www.reginfo.gov/public/jsp/eAgenda/StaticContent/201210/
Preamble<INF>--</INF>2100.html

    In addition to the motor carrier rules mentioned earlier, I 
would like to outline for you some specific rules that we 
identified in our most recent Retrospective Regulatory Review 
Report that may have implications for small businesses.\5\ That 
report lists 89 rulemaking actions that are underway in 
response to EO 13563, including at least 20 that will have a 
positive effect on small business. These include, among others, 
the following:
---------------------------------------------------------------------------
    \5\ The report can be accessed at: http://www.dot.gov/sites/
dot.dev/files/docs/january-2013-dot-rrr-report-final<INF>--</INF>0.pdf

          <bullet> FMCSA will propose a rulemaking \6\ 
        concerning e-signatures that would amend various 
        sections of the Federal Motor Carrier Safety 
        Regulations to enable the use of e-signatures in 
        support of electronic recordkeeping. This would save 
        the industry millions of dollars each year by 
        explicitly allowing electronic records and electronic 
        signatures in place of the more burdensome paper 
        records.
---------------------------------------------------------------------------
    \6\ Proposed rulemaking entitled: ``Electronic Signatures'' (RIN# 
2126-AB47).

          <bullet> PHMSA is evaluating comments and developing 
        a final rule \7\ that would allow for the certification 
        of fireworks by government-approved laboratories, 
        similar to the process that the Consumer Product Safety 
        Commission uses. It is intended to maintain the current 
        level of safety in certification, but would greatly 
        speed the process, freeing PHMSA's resources from the 
        certification process and saving money for the private 
        sector through quicker certification decisions, 
        potentially saving the industry up to $19 million per 
        year.
---------------------------------------------------------------------------
    \7\ Notice of Proposed Rulemaking entitled: ``Hazardous Materials: 
Revision of Requirements for Fireworks Approvals'' (RIN# 2120-AC41).

          <bullet> FAA has proposed a rulemaking \8\ to update, 
        simplify and streamline rules of practice and procedure 
        for filing and adjudicating complaints against 
        airports, including small business complaints. It would 
        improve efficiency by enabling parties to file 
        submissions with the FAA electronically, and by 
        incorporating modern business practices into how the 
        FAA handles complaints. Small businesses, including 
        general aviation operators and aviation service 
        businesses who are often involved in complaints, would 
        benefit from this rule because it would decrease time 
        spent and volume of paper documents needed to process 
        complaints by allowing parties to file electronically.
---------------------------------------------------------------------------
    \8\ Notice of Proposed Rulemaking entitled: ``Rules of Practice for 
Federally-Assisted Airport Enforcement Proceedings'' (RIN# 2120-AJ97).

          <bullet> FRA is also developing a proposed rule \9\ 
        to take advantage of advancements in technology, which 
        would allow small and commuter railroads to use 
        electronic recordkeeping to maintain the records for 
        review, without submitting them to FRA, which would 
        reduce recordkeeping burdens by approximately 200,000 
        hours annually for the regulated railroads.
---------------------------------------------------------------------------
    \9\ Proposed rulemaking entitled: ``Hours of Service Recordkeeping 
Amendments'' (RIN# 2130-AC41).

    These are only a few of the regulations that we have 
reviewed in order to carry out our duties under the relevant 
EOs and the statutory requirements that mandate agency 
retrospective regulatory review. We invite the Committee to 
view the entire report, which will give you a much better sense 
of the breadth of our continuing efforts in this regard, and we 
stand ready to provide more information or a face-to-face 
briefing as needed. The January 2013 report can be found on 
---------------------------------------------------------------------------
DOT's website:

    http://www.dot.gov/sites/dot.dev/files/docs/january-2013-
dot-rrr-report-final<INF>--</INF>0.pdf \10\

    In conclusion, let me once again thank the Committee for 
its interest in the Administration's and DOT's work in 
reviewing and reducing regulatory burdens on small businesses. 
We share your desire to continuously improve the safety, 
environmental quality, and consumer protection of our 
transportation system in a sensible, scientific, and cost-
beneficial way while ensuring that American businesses--large 
and small--are treated fairly so that they can grow and thrive.

    I am happy to take your questions.
                   U.S. SMALL BUSINESS ADMINISTRATION


                         WASHINGTON, D.C. 20416


                              TESTIMONY OF


                            JEANNE A. HULIT


               ASSOCIATE ADMINISTRATOR FOR CAPITAL ACCESS


                   U.S. SMALL BUSINESS ADMINISTRATION


                               BEFORE THE


                     U.S. HOUSE OF REPRESENTATIVES


                      COMMITTEE ON SMALL BUSINESS


                              MAY 8, 2013


    Thank you Chairman Graves, Ranking Member Velazquez and 
members of the Committee. I am pleased to be testifying before 
you on the Small Business Administration's (SBA) efforts to 
streamline its regulations.

    In SBA's Office of Capital Access (OCA), we have taken 
several steps to ease the regulatory burden on small business. 
We have recently streamlined both our 7(a) and Certified 
Development Company (CDC) loan programs. The two most 
significant changes have been to the ``personal resources 
test'' and the ``size affiliation requirement'' for the 
programs. Both of these proposed changes will increase 
eligibility for 7(a) and CDC loans, allowing more small 
businesses to access these critical financing tools.

    We have also streamlined the 504 loan closing process. 
Through this change, SBA is implementing efficiencies in SBA 
counsel's document review process. This significantly reduces 
the review time required by SBA counsel and will result in 
speedier loan package reviews and faster loan closings.

    OCA has also reduced the paperwork requirements for many 
participants in our surety bond program. The Quick Bond 
Guarantee Application--or ``Quick App''--combines the 
contractor application and SBA's surety agreement into one, 
easy-to-use form. This reform significantly reduces paperwork 
and processing times for SBA-backed surety bonds on 
construction contracts of $250,000 or less.

    In addition to these OCA improvements, there have also been 
some significant regulatory and paperwork reforms in other SBA 
programs. For the thousands of small firms that do business 
with the Federal government, we have helped reduce the time it 
takes to get paid. The President's ``Quick Pay'' initiative cut 
in half--from 30 days to 15 days--the amount of time it takes 
the Federal government to pay small businesses. Getting paid 
sooner means that small businesses can more quickly re-invest 
those funds in additional working capital, marketing their 
products, or hiring new workers.

    SBA's Office of Disaster Assistance (ODA) reform efforts 
have focused on further reducing the time it takes to approve 
loans to disaster victims. In the wake of Hurricane Sandy, ODA 
developed a pilot ``auto-approval'' process that uses credit 
scores and gross income from an applicant's Federal tax return 
as the basis for the approval decision. If expanded beyond the 
pilot, the streamlined approval process would significantly 
reduce SBA's processing costs for smaller disaster loans.

    In addition to retrospectively reviewing and revising its 
own regulations, SBA has also engaged the small business 
community to find out how other Federal rules and regulations 
can be adapted to fit the changing needs of emerging 
entrepreneurs. In 2011, senior Administration officials visited 
eight cities as part of the Startup America initiative. At 
these roundtables, SBA listened to small business owners, 
entrepreneurs and investors, as they described improvements to 
processes and regulations that can help build a more supportive 
environment for entrepreneurship and innovation. Those ideas 
were described in a report encompassing a broad array of policy 
areas--from student loans to intellectual property--and we have 
shared it with our Federal partners and the general public.

    I believe SBA has made significant progress in reducing the 
regulatory and paperwork burdens on America's small business. 
But work still remains, and we are committed to continuing 
these streamlining efforts.

    I wish to thank you for inviting me to testify on this 
important topic today, and I look forward to answering any 
questions you may have.
                        Statement of Cheryl Cook


                       Chief Information Officer


                United States Department of Agriculture


              Before the House Committee on Small Business


                              May 8, 2013


    Chairman Graves and members of the committee, I am pleased 
to have this opportunity to discuss the Department of 
Agriculture's efforts to reduce regulatory burdens on small 
businesses, and to facilitate new business development through 
cutting-edge research and an array of financial and technical 
assistance programs. Small businesses, including farms and 
ranches, create a foundation for prosperity in rural America. 
They provide millions of jobs, provide an abundant and 
affordable food supply, and increase our Nation's energy 
independence. Under President Obama and Secretary Vilsack's 
leadership, small businesses have been a critical element of 
our strategy to improve economic opportunity for those living 
in rural communities. USDA has taken steps to support the 
productivity and viability of small farming and ranching 
enterprises, crate new opportunity for local and regional 
marketing, expand conservation efforts and provide support for 
rural small businesses to expand, grow and hire more. Across 
each of these efforts, we recognize that farmers, ranchers and 
rural business owners devote long hours and hard work to their 
trade--and we have a responsibility to ensure that their 
efforts are not weighed down by unnecessary, burdensome 
paperwork.

    Given the unique nature of USDA's work, its close 
relationship with rural America, and its related sensitivity to 
the small businesses that foster economic growth, the 
Department was eager to undertake a review of its regulations 
and paperwork activities as required by Executive Orders 13563 
and 13610. Our goal was to identify significant rules and 
information collections that were obsolete, unnecessary, 
unjustified, excessively burdensome, or counterproductive to 
our efforts to revitalize rural America.

    USDA has taken steps to revise or repeal regulations that 
are unnecessary as a result of changed circumstances, or are 
duplicative or inappropriately burdensome. To accomplish this, 
USDA has internal procedures that establish a process for the 
development and review of all regulatory actions to ensure that 
USDA's regulatory actions foster economic growth; respect the 
role of State, local, and tribal governments; and do not impose 
unreasonable costs on society. The procedures cover the full 
rulemaking cycle, starting when the need for a regulatory 
action is first identified, and carries through drafting, 
technical, legal, policy, and interdepartmental review, 
publication of proposed rule in the Federal Register, receipt 
of public comments, and publication of a final rule for 
inclusion in the Code of Federal Regulations.

    In order to implement Executive Orders 13563, ``Improving 
Regulation and Regulatory Review'' and 13610, ``Identifying and 
Reducing Regulatory Burdens'' Deputy Secretary Kathleen 
Merrigan directed a retrospective review team comprised of 
mission area and agency-level regulatory review coordinators 
and work groups. The team initiated a review of USDA 
regulations that focused on increasing the public's access to 
critical USDA programs, particularly those programs where 
access could be simplified and the reporting burdens reduced. 
The intent was to minimize burdens on individuals, businesses 
and communities attempting to access programs that promote 
economic growth, create jobs, and protect the health and safety 
of the American people.

    The review encompassed the activities of the largest 
regulatory and service delivery organizations in the 
Department: RD, RMA, FSA, National Resources Conservation 
Service (NRCS), the Food Safety and Inspection Service (FSIS), 
the Forest Service (FS), and the Animal and Plant Health 
Inspection Service (APHIS). These agencies offered the best 
opportunities to achieve President Obama's goals for promoting 
regulatory innovation and reducing reporting burdens, while 
simultaneously reducing administrative and operating costs.

    In order to identify candidates for analysis, USDA 
considered several factors in setting priorities. A number of 
these factors are outlined under Section 610 of the Regulatory 
Flexibility Act including: the continued need for the 
regulation; the nature of comments or petitions received 
concerning the regulation from the public; the complexity of 
the regulation; the extent to which the regulation overlaps, 
duplicates, or conflicts with other Federal regulations, and, 
to the extent applicable, with State and local government 
regulations; the length of time since the regulation has been 
evaluated, and the degree to which technology, economic 
conditions, or other factors may have changed in the areas 
affected by the regulation. For the purposes of implementing 
E.O. 13563, USDA also considered the urgency for improving 
customer service by simplifying, streamlining, or improving 
quality for information collection procedures; comments from 
stakeholders; resource capacity and potential approval process 
timelines; and need for statutory change.

    USDA invited the public to participate in its review 
through the publication of a Request for Information (RFI) in 
the Federal Register on April 20, 2011. USDA also invited the 
public to participate through its Open Government Web site. In 
addition, USDA's largest regulatory and service delivery 
organizations conducted independent public outreach activities 
employing a variety of mechanisms, including social media and 
traditional RFI's to continue seeking input from the public. 
Through this efforts, over 2,100 public comments were received 
from a broad range of stakeholders, including individuals, 
regulated entities, trade groups, and USDA employees.

    Based on USDA's evaluation and public input, USDA released 
its Final Plan for Retrospective Analysis on August 18, 2011. 
The final plan, which was subsequently updated to reflect input 
for Executive Order 13610, identifies 13 initiatives that would 
significantly reduce regulatory burdens and several initiatives 
aimed at reducing paperwork burdens. Of these, eight were 
featured in USDA's Fall 2012 Statement of Regulatory Priorities 
as regulatory actions that would significantly reduce burdens 
on small business.

    Since the release of its Final Plan for Retrospective 
Analysis, USDA has made progress in implementing these 
initiatives. For example:

    On January 23, 2012, FSIS published a proposed rule for 
Electronic Export Application and Certification Fee to make the 
export component of Agency's Public Health Information System 
(PHIS) available as an alternative to the paper-based 
application and certification process.

    On November 27, 2012, FSIS published a proposed rule for 
Electronic Import Inspection and Certification of Imported 
Products and Foreign Establishments, which is intended to 
reduce the information collection burden on importers by 
approximately 10,000 hours. We are moving forward with a 
proposed rule to expand FSIS' use of generic labeling.

    On April 12, 2013, RD's Rural Business Service published a 
rule that proposes to streamline grant application 
requirements. The final rule is expected to reduce the 
information collection burden by reducing the number of hours 
it takes to complete a technical report for projects with total 
project costs (TPC) of more than $80,000 to $200,000; 
eliminating the requirement for a technical report for projects 
with TPC of $80,000 or less; and reducing the number of hours 
it takes to complete the application.

    USDA also has made significant investments in information 
technology to reduce red tape and make it easier to access 
USDA's financial and technical assistance programs. While many 
of USDA's 19 agencies have IT modernization efforts underway to 
push their programs to the Web, most notable is Farm Service 
Agency's Modernize and Innovate the Delivery of Agricultural 
Systems (MIDAS) initiative, the first phase of which was 
implemented in FSA field offices this month. MIDAS aims to 
provide FSA employees with better tools to provide stronger 
service for producers by logging into a single system rather 
than toggling among several and, for the first time, fully 
integrates GIS technology with information about farm, fields 
and crop histories.

    USDA continues to accept comments from the public on any of 
its regulations and continues to look for ways to advance the 
mission of USDA consistent with the Executive Orders. 
Consistent with the need for periodic review of its 
regulations, USDA has continued to employ its Open Government 
Web site to give the public an ongoing forum to provide input 
and discuss the retrospective analysis of regulations, and to 
help USDA formulate plans for future reviews. If, at any time, 
members of the public identify possible reforms to streamline 
requirements and to reduce existing burdens, USDA will give 
those suggestions careful consideration. USDA is committed to 
identifying inefficient, duplicative, or obsolete regulations 
and to identify ways to reduce program burdens and increase 
access.

    That concludes my statement for the record. I would be 
happy to answer any questions.

                                 <all>

</pre></body></html>
